                        U.S. Department of Agriculture
                           Office of Inspector General




Implementation of Country of Origin Labeling




                                 Audit Report 01601-04-Hy
                                              August 2011
                         United States Department of Agriculture
                                 Office of Inspector General




DATE:          August 18, 2011

AUDIT
NUMBER:        01601-04-Hy

TO:            David Shipman
               Acting Administrator
               Agricultural Marketing Service

ATTN:          Kevin Richardson
               Director
               Planning and Accountability Division
               Compliance and Analysis Program

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Implementation of Country of Origin Labeling


This report represents the results of our audit of Country of Origin Labeling. Your response
to the official draft report, dated June 10, 2011, is included in its entirety at the end of the
report. Excerpts of your response and the Office of Inspector General’s position are
incorporated into the Findings and Recommendations section of the report. Based on your
response, we have reached management decision on all of the report’s 14 recommendations,
and no further response to us is necessary. Departmental Regulation 1720-1 requires final
action to be taken within 1 year of each management decision to prevent being listed in the
Department’s annual Performance and Accountability Report. Please follow your internal
agency procedures in forwarding final action correspondence to OCFO.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background & Objectives .......................................................................................5
Background...............................................................................................................5
Objective ...................................................................................................................8
Section 1: Retailer Reviews ....................................................................................9
            Finding 1: AMS Needs to Improve the Retailer Selection Process .......9
                             Recommendation 1..................................................................11
                             Recommendation 2..................................................................12
                             Recommendation 3..................................................................12
                             Recommendation 4..................................................................13
            Finding 2: AMS Needs to Strengthen Retailer Review Procedures....13
                             Recommendation 5..................................................................15
                             Recommendation 6..................................................................15
                             Recommendation 7..................................................................16
            Finding 3: AMS Needs to Improve the Timeliness of Its Evaluation of
                      Retailer Review Documentation ...........................................16
                             Recommendation 8..................................................................17
Section 2: Oversight and Enforcement ...............................................................19
            Finding 4: AMS Needs to Improve Enforcement of COOL
                      Regulations ..............................................................................19
                             Recommendation 9..................................................................20
                             Recommendation 10................................................................21
            Finding 5: AMS Needs to Improve Its Oversight of State Agencies ...21
                             Recommendation 11................................................................23
            Finding 6: AMS Needs to Improve Communication with Retailers ...24
                             Recommendation 12................................................................26
                             Recommendation 13................................................................26
                             Recommendation 14................................................................27
Scope and Methodology.........................................................................................28
Abbreviations .........................................................................................................30
Exhibit A - Summary of Monetary Results .........................................................31
Agency Response ....................................................................................................32
Implementation of Country of Origin Labeling
Executive Summary
For many years, various agricultural and consumer advocacy groups have argued for legislation
that would require food suppliers to provide consumers with country-of-origin information about
food products to help consumers make purchasing decisions. The Farm Security and Rural
Investment Act of 2002 (2002 Farm Bill) and the Food, Conservation, and Energy Act of
2008 (2008 Farm Bill) amended the Agricultural Marketing Act of 1946 (Act) to require retailers
to notify their customers of the country of origin of certain commodities at the final point of sale.
The commodities covered by the legislation include muscle cuts of beef (including veal), lamb,
chicken, goat, and pork; ground meats including beef, lamb, chicken, goat, and pork; wild and
farm-raised fish and shellfish; perishable agricultural commodities;1 macadamia nuts; pecans;
ginseng; and peanuts. Entities licensed as retailers under the Perishable Agricultural
Commodities Act (PACA) of 19302 are the only entities required to label these covered
commodities for country of origin. The Country of Origin Labeling (COOL) final rule 3 went
into effect in March 2009. We designed this audit to evaluate the Agricultural Marketing
Service’s (AMS) implementation and oversight of the COOL final rule.

AMS made significant strides implementing the final rule. For example, AMS entered into
cooperative agreements with all 50 States to conduct reviews of PACA-licensed retailers to
ensure they adhere to COOL regulations. AMS also conducts tracebacks of covered
commodities to ensure establishments that supply covered commodities to retailers meet COOL
recordkeeping requirements. In addition, these tracebacks verify the accuracy of the method of
production and country of origin labeling information. AMS also implemented a complaint
system that allows customers to file complaints regarding how products are labeled. COOL is a
relatively new labeling program and AMS officials continue to make improvements in the
agency’s oversight and enforcement of the COOL regulations.

However, we found that AMS still needs to make improvements to its controls and processes to
ensure retailers and suppliers fully comply with the regulations. Specifically, AMS needs to
strengthen its process for selecting retailers for review, strengthen the review process itself, and
improve the timeliness with which AMS evaluates retailer documentation and issues
noncompliance letters. AMS needs to vigorously enforce COOL requirements, provide better
oversight of the State agencies tasked with conducting the retailer reviews, and improve the way
it communicates with and provides program guidance to retailers.

Retailer reviews include procedures to (1) review the labels on all covered commodities to
determine compliance with COOL labeling regulations, and (2) review the records that support
the country-of-origin and method of production labels for five covered commodities. AMS uses
a database maintained by a private contractor to select retailers for onsite reviews. AMS
forwards the sample of retailers to the appropriate States to conduct COOL reviews and

1
  The Perishable Agricultural Commodities Act defines perishable agricultural commodities as fresh and frozen
fruits and vegetables of all kinds, including cherries in brine.
2
  An entity licensed as a retailer is one with $230,000 in annual invoice costs of perishable agricultural commodities
and 2,000 pounds in sales of perishable agricultural commodities in any given day during a year.
3
  COOL Final Rule, January 15, 2009.


Audit Report 01601-04-Hy                                                                                             1
reimburses the States $600 per review. Since the database was not designed to identify which
retailers are PACA-licensed and therefore subject to COOL, AMS makes its selections based on
the type of store (supermarket and wholesale club stores) and the amount of sales (greater than
$2 million annually)—that are designed to target probable PACA-licensed retailers. However,
our audit testing found at least 40 retailers in 15 States that, despite being PACA-licensed, fell
outside the AMS target group of stores having annual sales in excess of $2 million. We
concluded that AMS’ methodology does not ensure that all PACA-licensed retailers have a
chance of being selected for onsite reviews. We also found that AMS does not currently have a
procedure for removing from the sample any retailers who are found not to be PACA-licensed or
are no longer in business. As a result, AMS reimbursed State agencies $296,400 for onsite
reviews performed at retailers who were out-of-business or not subject to COOL.

During the audit, we questioned whether smaller branches of a PACA-licensed corporation must
adhere to COOL. Officials of both AMS and the Office of the General Counsel stated that,
under the Act, all retail branches of a PACA-licensed corporation, regardless of whether the
branches individually meet PACA licensing requirements, are required to adhere to COOL.
However, AMS did not include these retailers in their onsite monitoring efforts because they
focused their resources on large retailers. As a result of discussions we held with AMS officials,
they agreed to begin monitoring such retailers for compliance with COOL.

AMS designed its retailer review process to identify specific retailer noncompliances and to
notify the retailers when these are found; however, the agency simply rated retailers on a
pass/fail system and did not implement a more detailed compliance rating system that would
allow AMS to evaluate the overall compliance of retailers nationwide or to identify the control
problems that may have resulted in the noncompliances. AMS officials began developing a
compliance rating system over the course of our audit; however the system was not implemented
during audit fieldwork. In addition, although AMS’ procedures for conducting onsite reviews
require State reviewers to ensure that the required country-of-origin labels are in place for all
products, we concluded they do not require adequate testing to verify the accuracy of the labels
themselves. This occurred because AMS designed the noncompliance procedures to be uniform
for all retailers regardless of the extent of noncompliance, and because AMS placed a greater
emphasis on ensuring that commodities were labeled rather than ensuring the accuracy of the
labels. As a result, AMS had reduced assurance that onsite reviews were of sufficient scope to
identify the true extent of retailers’ compliance, or that any underlying causes for
noncompliances were being identified and corrected.

Once the States complete retailer reviews, AMS has an internal policy to evaluate the reviews
and issue noncompliance letters within 304 days of receiving completed reviews from the States.
State agencies completed 5,007 reviews during the calendar year (CY) 2009 review cycle;
however, as of February 17, 2010, AMS still had not reviewed 1,003 (20 percent) of these
reviews. We attributed this problem to a lack of sufficient personnel dedicated to evaluating
reviews. As of February 2010, only five permanent AMS employees had been tasked with
evaluating the reviews completed in CY 2009. Following our discussions with AMS officials,
they temporarily re-assigned and trained an additional 14 employees to help reduce this backlog.
Despite these actions, the backlog had not been entirely eliminated by the time AMS completed

4
  The 30 day policy was implemented on August 25, 2010. Prior to the issuance of this policy, AMS’ policy
required evaluation of retailer reviews within 5 days of receiving them from the States.

Audit Report 01601-04-Hy                                                                                    2
the 2010 review cycle. In addition, in cases where the AMS evaluations confirmed instances of
retailer noncompliance, the agency did not timely notify the retailer of noncompliance and
require corrective actions. We found that in 1,719 of the 5,528 reviews conducted during CY
2010 with identified noncompliances, AMS did not formally notify retailers that they were out of
compliance for at least 60 days following the completion of onsite reviews. AMS believes that a
new database they plan on implementing in August 2011 will eliminate backlogs through
electronic data input and automatic data updating. We were not able to analyze the database
during fieldwork because AMS was in the process of developing it.

AMS has not issued any civil penalties, which are allowed up to $1,000 per violation, even
though these may have been warranted in some cases. This occurred because COOL was a new
program and AMS wanted retailers to become familiar with its requirements. Although AMS
conducted followup reviews, the agency did not use these reviews to identify and investigate
cases where continued noncompliances of the same type may have indicated willful violations on
the part of the retailers. By analyzing the 1,005 followup reviews AMS initiated between
February 2010 and September 2010, we identified 21 retailers who had more instances of
recorded noncompliances at the time of the followup than were noted in the initial visits, and
whose noncompliances repeated those noted previously. For four retailers, the noncompliances
noted in the followup review even involved the same commodity items involved in the earlier
noncompliances. While these represent only a small portion of the total followup reviews, they
do indicate the possibility that some retailers may be deliberately violating regulations, which
may require monetary penalties.

We found that AMS had not established supervisory or other controls to ensure that State
reviewers consistently evaluated compliance with COOL requirements. During our audit
fieldwork, we noted significant variations in the number of noncompliances identified by
reviewers in different States, and in some cases by reviewers within the same State. For
example, only 18 percent of the reviews completed in Kentucky during CY 2009 identified one
or more noncompliances, while 96 percent of those conducted in Missouri during the same
period identified noncompliances. In California, where four reviewers completed over
99 percent of the reviews performed during CY 2009, we noticed similar variations among the
individual reviewers. Each of the reviewers completed at least 100 reviews. In total they issued
333 noncompliances for inaccurate origin declarations.5 Two of the 4 identified 6 percent of the
inaccurate origin declaration noncompliances while the other 2 identified 94 percent of such
noncompliances. In our discussions with two of the California reviewers, we found that they had
significantly different understandings of what constituted a noncompliance. The agency did not
have a process in place to assure the quality of these State-performed reviews on an ongoing,
nationwide basis.

Although we found most retailers are aware of COOL, AMS needs to make additional efforts to
ensure all retailers are aware of the COOL requirements. This occurred because AMS officials
believed their initial education and outreach efforts—such as the COOL website, webinars, and
open forums—would sufficiently educate all retailers about COOL. Although these initiatives
were effective in disseminating COOL information to most retailers, AMS needs to make
additional efforts to ensure that all retailers comply with COOL. For example, we analyzed the

5
 An inaccurate origin declaration occurs when bin signage is different than the individual labels on the items in the
bin.

Audit Report 01601-04-Hy                                                                                                3
results of our 24 retailer visits between March and May of 2010 and determined that all 3 of the
independent retailers6 we reviewed were not aware of COOL regulations and consequently did
not label for country of origin.

We recognize that COOL is relatively new and AMS officials continue to make improvements in
their management of the program. However, agency officials should implement measures to
improve the retailer review process and enhance their oversight and enforcement of the program.

Recommendations Summary
We recommend that AMS develop and implement a process for selecting only PACA-licensed
retailers for retailer reviews. We also recommend that AMS officials develop and implement a
retailer compliance rating system and appropriate followup procedures for retailers identified as
noncompliant and promptly issue noncompliance letters. In addition, we recommend that AMS
enhance its enforcement procedures, periodically evaluate State performance of retailer reviews,
and improve communications with retailers.

Agency Response
AMS agreed with the report’s 14 recommendations. AMS’ June 10, 2011, response is included
in its entirety at the end of the report.

OIG Position
Based on AMS’ responses, we have reached management decision on each of the report’s
14 recommendations.




6
    An independent retailer is a retailer with three or less locations nationwide.

Audit Report 01601-04-Hy                                                                           4
Background & Objectives
Background
Congress enacted Country of Origin Labeling (COOL) requirements to assist consumers in
making informed purchasing decisions by notifying them of a commodity’s country of origin at
the final point of sale. The Farm Security and Rural Investment Act of 2002 (2002 Farm Bill)
and the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill) amended the Agricultural
Marketing Act of 1946 (Act) to mandate COOL. The 2002 Farm Bill required retailers who are
licensed under the Perishable Agricultural Commodity Act of 1930 (PACA), and who sell
specified types of meat,7 fish,8 perishable agricultural commodities,9 and peanuts to notify
customers of the country of origin for these products at the final point of sale. Retailers are
required to become PACA-licensed when they sell more than 2,000 pounds of perishable
agricultural commodities in any given day, and also have annual invoice costs of perishable
agricultural commodities totaling at least $230,000.10 The 2008 Farm Bill amended the
2002 Farm Bill provisions to include meat products from goats and chickens (in whole and in
part), along with ginseng, pecans, and macadamia nuts. Retailers who do not fall under the
licensing requirements of PACA are exempt from complying with COOL.

The interim final rule for fish and shellfish (7 Code of Federal Regulations (CFR) Part 60) went
into effect in April 2005 while the final rule for all covered commodities (7 CFR Part 65) went
into effect in March 2009. The final rule requires retailers11 to label covered commodities with
the country of origin(s) at the final point of sale and to maintain records supporting the origin
reflected on the label. AMS allowed retailers different methods to label covered commodities
with country of origin information, including labels on the individual product, bulk bin, carton,
crate, barrel, cluster, or consumer package. These labels can either be in the form of a placard,
sign, label, sticker, band, twist tie, pin tag, or other format that allows consumers to identify the
country of origin. Covered commodities that are ingredients in processed foods are exempt from
the requirements of the final rule. Processed foods include food that is cooked, cured, smoked,
or restructured. Examples of processed food items include teriyaki flavored pork loin, roasted
peanuts, breaded chicken tenders, and fruit medley.

The Agricultural Marketing Service (AMS) is the U.S. Department of Agriculture (USDA)
agency directly charged with overseeing the implementation of COOL. Specifically, the COOL
Branch of AMS’ Livestock and Seed Program makes policy and oversees enforcement of COOL
regulations. According to AMS data, there are 4,040 companies with over 36,000 retail stores
licensed under PACA. In addition, AMS estimates that approximately 1.3 million

7
  Meat products that were covered under the 2002 Farm Bill included muscle cuts of beef, lamb and pork; and
ground beef, lamb and pork.
8
  Fish products that were covered under the 2002 Farm Bill included farm-raised fish and shellfish as well as wild-
caught fish and shellfish.
9
  PACA defines perishable agricultural commodities as fresh and frozen fruits and vegetables of all kinds, including
cherries in brine.
10
   The original amount in the Perishable Agricultural Commodities Act of 1930 was $90,000. This amount
increased to $230,000 over time.
11
   For purposes of this report, retailers refer to all stores that maintain a PACA license. Non-PACA licensed
facilities will be referred to as non-PACA-licensed retailers.


Audit Report 01601-04-Hy                                                                                           5
establishments (which include producers, handlers, processors, wholesalers, and other non-retail
establishments) could be affected by COOL.

AMS created an enforcement structure that included reviews of retailers for compliance with the
regulations; tracebacks of commodities to ensure suppliers comply with COOL recordkeeping
regulations and verification of the accuracy of method of production and country of origin
labeling information; and a program complaint system to allow consumers to file complaints
regarding how products are labeled. AMS’ Fruit and Vegetable (FV) program oversees PACA
by ensuring that all retailers required to be PACA-licensed apply for and obtain a license. FV
also has an enforcement structure to identify retailers who are required to be licensed under
PACA, but who have not done so.

AMS entered into cooperative agreements with all 50 States to assist in carrying out retailer
reviews. AMS holds annual sessions with the States to train and refresh State COOL officials
regarding COOL regulations. The State officials who attend these meetings are authorized to
train all reviewers within their States to conduct retailer reviews. States do not have the
authority to choose the retailers to be reviewed; instead, AMS provides each State with a list of
retailers to be reviewed and a deadline for completion of reviews. Officials in AMS’ Meat,
Grading, and Certification Branch complete any reviews that States are unable to finish.

The frequency and number of retailer reviews conducted in any given year depends on AMS’
budget allocations to pay for the selection of retailers to review, to pay for the training of State
agency officials, and to reimburse State agencies for each review completed. Beginning in 2009,
AMS reimbursed the States $600 per review. However, in 2008 AMS reimbursed the States
$300 per review completed because fish and shellfish were the only covered commodities.

Since AMS does not have a listing of all retailers in the United States, the agency contracts out
the selection of retailers for review. PACA regulations only require retailers to obtain one
PACA license for all stores an entity may own. The PACA database only identifies the licensee
and not the individual store locations; therefore, AMS cannot use this database to identify
individual stores to review. To obtain a list of retailers to review, AMS hired a contractor that
has a database with the locations of all retailers in the United States. This database breaks down
the retailer listing into categories based on different factors, such as sales, types of products sold,
volume of products sold, and physical size of the store. Examples of the categories include
supermarkets (annual sales greater than $2 million), small grocery stores (annual sales less than
$2 million), wholesale clubs (membership stores distributing in bulk), and convenience stores
(between 800 and 1,300 square feet, among other requirements). Since the database does not
identify whether retailers are PACA-licensed, AMS must select retailers for review using
available parameters that target those retailers most likely to be licensed. Based on these
parameters, AMS requests a sample of stores from the supermarket and wholesale club
categories. The contractor randomly selects stores and provides a listing of these selections to
AMS.

Each State agency is responsible for completing reviews of the retailers located in its State.
These reviews include two parts: (1) a visual review of the country of origin labels on all covered
commodities at the retailer to determine if the labels comply with COOL regulations and (2) a
review of the records for five commodities to determine if the label on those products accurately


Audit Report 01601-04-Hy                                                                              6
reflects the records to support the country of origin. AMS divided covered commodities into
19 commodity areas and separated them into 5 categories for retailer review purposes:

     ·   Category 1—Fresh fruits, frozen fruits, peanuts, pecans, macadamia nuts;

     ·   Category 2—Ginseng, fresh vegetables, frozen vegetables;

     ·   Category 3—Fresh fish and shellfish, frozen fish and shellfish;

     ·   Category 4—Beef muscle cuts, ground beef, veal muscle cuts, ground veal, pork muscle
         cuts, ground pork; and

     ·   Category 5—Chicken muscle cuts, ground chicken, goat muscle cuts, ground goat, lamb
         muscle cuts, and ground lamb.

AMS uses a random number generator12 to select one commodity area from each of the five
categories for each retailer selected for review. These selections are sent to the States with the
sample of retailers to review. Since AMS cannot know the exact products at a retailer, State
reviewers must use their judgment when selecting specific products for record review.

The State reviewer completes a retailer review worksheet following completion of the retailer
visit. The reviewer documents all noncompliances, as well as supplier information for the five
commodities reviewed on this worksheet. Examples of noncompliances State reviewers may
identify at retailers include: lack of origin or method of production; declaration of origin is not
accurate; and country of origin abbreviations that do not clearly indicate country of origin. State
officials are responsible for submitting the completed review worksheets to AMS. AMS officials
evaluate the worksheets for completeness and accuracy and issue noncompliance letters to the
retailers as necessary. AMS’ internal policy prior to August 2010 required AMS officials to
evaluate State review worksheets and distribute noncompliance letters within 5 days of
submission from the State.13 However, in August 2010, AMS revised this policy to require
evaluation of State review worksheets within 30 days of submission from the State. Retailers
have 30 days from receipt of the noncompliance letter to submit corrective actions to AMS.
AMS evaluates corrective actions implemented, and determines if they were acceptable to
correct the noncompliances. If not, AMS will follow up as needed.

In addition to the retailer reviews conducted by the State and overseen by AMS’ COOL Branch,
AMS’ Meat, Grading, and Certification Branch conducts supplier tracebacks of covered
commodities to ensure records support the method of production and country of origin. To
conduct these tracebacks, COOL officials randomly select a pre-specified number of retailer
reviews that the States completed. Then, a random number generator is used to select one of the
five commodities that were reviewed for record verification during the retailer review. Meat,
Grading, and Certification Branch officials will then contact the supplier of that product and all
previous suppliers until the originating source of the product is identified. COOL regulations
require suppliers to maintain records supporting COOL for one year. Once the traceback is
12
   AMS uses a function in a computer program to generate a random set of numbers based on a given set of criteria.
In this case, the random numbers are used to select commodity areas within the five commodity categories.
13
   COOL Program Operating Procedures and Employee Handbook Section 1.4(d).

Audit Report 01601-04-Hy                                                                                         7
complete, Meat, Grading, and Certification Branch officials complete a report and send it to
COOL Branch officials who will then identify and issue noncompliance letters to suppliers.

Objective
The objective of this audit was to evaluate the implementation of the COOL final rule that went
into effect in March 2009. In addition, we (1) determined whether AMS ensured that all retailers
adequately met COOL requirements, and (2) evaluated the adequacy and consistency of the
oversight provided by AMS personnel to ensure requirements were met.




Audit Report 01601-04-Hy                                                                       8
Section 1: Retailer Reviews
Finding 1: AMS Needs to Improve the Retailer Selection Process
We found that AMS’ method of selecting retailers for review did not ensure that all retailers
subject to COOL had an opportunity to be selected, particularly PACA-licensed retailers whose
annual sales fell below $2 million. In addition, agency officials had not implemented a process
to eliminate from the selection process those retailers who were exempt from COOL
requirements or who were found to have gone out of business. This occurred because AMS
could not specifically identify PACA-licensed retailers, and instead devised parameters to select
retailers for onsite visits that inadvertently excluded smaller retailers who were nevertheless
subject to COOL. In addition, AMS did not implement procedures to identify selected retailers
who were not in fact PACA-licensed or who had gone out of business before attempting actual
onsite visits. As a result, retailers subject to COOL may never be selected for onsite compliance
reviews. At the same time, we found that retailers exempt from COOL requirements had been
visited by State reviewers and cited for violating requirements that they were not legally required
to follow.14 Since calendar year (CY) 2009, AMS reimbursed State agencies $296,400 for
494 retailer reviews at non-PACA-licensed and out-of-business retailers (see exhibit A).

The Act allows the Secretary to conduct an audit15 of any person who prepares, stores, handles,
or distributes a covered commodity for retail sale to verify compliance with Subtitle D of the
Act. Subtitle D of the Act refers to COOL requirements, which includes defining a retailer based
on PACA requirements. PACA defines a retailer as any “person” who is a “dealer” in the
business of selling any perishable agricultural commodity at retail. PACA states that persons are
not considered dealers until the annual invoice cost of perishable agricultural commodities
exceeds $230,000.16

AMS does not have a comprehensive list of the locations of all PACA-licensed retailers.
Instead, AMS officials outsourced the selection of retailers to a contractor who maintains a list of
all retailers across the country. However, the contractor is not able to distinguish between
PACA-licensed retailers and those who do not have licenses and are therefore not subject to
COOL. To determine which retailers are subject to review, each year AMS instructs the
contractor to generate a sample of retailers based on parameters that are designed to target those
most likely to be PACA-licensed retailers subject to COOL. These listings are then sent to
AMS, which uses them to select the retailers to be visited by State reviewers during the
upcoming year. AMS assigns all States a number of retailers to review based on State
populations from the latest Census. For example, since California had the largest population in
the last Census, AMS assigned that State the most retailers to review.



14
   AMS did not assess monetary penalties against these retailers, however AMS asked the retailers to comply with
COOL and dedicated resources into addressing noncompliances that did not apply to them.
15
   The Act uses the word “audits”; however, AMS internal policies refer to them as “retailer surveillance reviews.”
For purposes of this report, we refer to them as “reviews.”
16
   The original amount in the Perishable Agricultural Commodities Act of 1930 was $90,000. This amount has
increased to $230,000.

Audit Report 01601-04-Hy                                                                                              9
AMS requests a sample of stores from the “supermarket” and “wholesale club” categories
established by the contractor. Supermarket stores are those with over $2 million in annual sales
and wholesale club stores are membership stores that distribute in bulk. AMS did not select
retailers from the small grocery category because, based on a Small Business Administration
analysis, AMS concluded it was “likely” that a store would have to have sales receipts greater
than $3 million annually before reaching the PACA-licensing requirement. However, AMS
officials could not provide us with support that there were no PACA-licensed retailers with under
$2 million in sales because the PACA database does not include sales data.

To test whether there were PACA-licensed retailers with under $2 million in annual sales, we
obtained listings of grocery stores in all 50 States using the Food and Nutrition Service’s Anti-
Fraud Locator Using Electronic Benefits Transfer Retailer Transactions (ALERT) system.
ALERT contains retailer gross sales data for the tax year of the retailer’s Supplemental Nutrition
Assistance Program application. We analyzed the ALERT data for the first 15 alphabetically
listed States and compared it to the same States in AMS’ PACA database. We referred
79 retailers with sales under $2 million in ALERT that had a similarly corresponding record in
the PACA database to AMS to determine if they were indeed PACA-licensed. AMS confirmed
that at least 40 of these retailers were PACA-licensed.

Additionally we found that AMS, before it assigned the retailers to States for review, did not
verify that retailers provided by the contractor were, in fact, both PACA-licensed and currently
operating. After reviews were completed, AMS found that State reviewers visited 264 stores in
CY 2009 and 2010 that were not PACA-licensed. These stores alerted the State reviewers that
they were not PACA-licensed either at the time of the review, or later alerted AMS HQ officials
after receiving letters of noncompliance from the agency. In addition, State reviewers attempted
to review 230 retailers that were found to be closed. Since AMS reimbursed the States the full
$600 reimbursement amount even when reviewers visited stores that were not PACA-licensed,
AMS reimbursed the States at least $158,400 for reviews at 264 stores that were not PACA-
licensed. In addition, AMS reimbursed the States $138,000 for 230 reviews attempted at
retailers who were no longer in business,17 resulting in a total of $296,400 in taxpayer funds that
could have been put to better use.

Without procedures for verifying that retailers were subject to COOL, the State reviewers visited
non-PACA-licensed retailers and caused them to dedicate resources to label commodities for
country of origin even though they were not required to do so. We visited 17 retailers between
March 2010 and May 2010 who were previously reviewed by State reviewers in 2009. After our
review, AMS searched the PACA database and determined that five of these retailers were not
PACA-licensed, and did not have to adhere to COOL requirements. However, AMS sent
noncompliance letters to all five of these retailers after the States reviewed them in 2009, leading
the retailers to believe that they had to adhere to COOL. After the State reviews, these five
retailers made an effort to label their commodities for country of origin. The retailers did not
alert State reviewers that they were not PACA-licensed because these retailers were not familiar
with either the PACA or COOL regulations. Following our reviews AMS notified these retailers
that they did not have to adhere to COOL. To prevent this type of confusion, AMS needs to

17
  State reviewers visited out-of-business retailers because AMS did not develop procedures to identify such stores
prior to State reviewers visiting them.

Audit Report 01601-04-Hy                                                                                         10
identify any additional non-PACA-licensed retailers from the 15,000 retailer reviews conducted
since 2008 and inform them that they are not required to adhere to COOL.

When we alerted AMS that non-PACA-licensed retailers were selected for review, they
implemented procedures to verify the lists the contractor provided against the PACA database to
ensure that all retailers selected for review were licensed. We determined that these procedures
should allow AMS to exclude all non-PACA-licensed retailers from the retailer review sample.
However, these procedures would not identify closed stores prior to a reviewer visiting them.

During the audit, we questioned whether smaller branches of a PACA-licensed corporation must
adhere to COOL. Officials of both AMS and the Office of the General Counsel (OGC) stated
that, under the Act, all retail branches of a PACA-licensed corporation, regardless of whether the
branches individually meet the PACA-licensing requirements, are required to adhere to COOL.
However, AMS did not include these retailers in their onsite monitoring efforts because they
focused their resources on large retailers. AMS officials agreed that they should begin
monitoring COOL compliance at these smaller corporate branches, which would have the
desired effect of ensuring that all retailers were monitored for COOL compliance.

The weaknesses we identified in AMS’ retailer selection process resulted in non-PACA-licensed
retailers dedicating resources to COOL even though they were not required to do so. AMS needs
to initiate a process to analyze retailer reviews completed since 2008 and identify all reviews
completed at non-PACA-licensed retailers, contact these stores, and inform them they do not
need to adhere to COOL. In addition, AMS needs to develop a system for identifying and
extracting non-PACA-licensed and closed stores from the sample of stores received from AMS’
contractor and submitted to the States for review. AMS’ current parameters for selecting
retailers for review also exclude some PACA-licensed retailers from being monitored for COOL
compliance. AMS needs to develop a process to ensure all PACA-licensed retailers are included
in the retailer review selection universe.

Recommendation 1
Conduct an analysis of retailers with under $2 million in annual sales to determine if PACA-
licensed retailers are in this category of the contractor’s database. If this analysis does identify
PACA-licensed retailers having under $2 million in annual sales, develop parameters to include a
percentage of stores with under $2 million in annual sales when requesting retailers for review.

Agency Response
As stated in the final rule, AMS estimates that there are over 37,000 retail stores subject to the
COOL regulation. At the time of the audit, AMS focused its resources on retail stores with over
$2 million in grocery sales to ensure that the greatest number of covered commodities was
reviewed. In response to the recommendation, AMS officials agreed to purchase a list of
retailers with $1-2 million in grocery sales from their contractor, and match the store locations on
that list against the PACA data base to identify PACA-licensed entities. A stratified random
sample of identified PACA-licensed retail stores in the $1-2 million sales range will be assigned
to State and Federal officials for retail surveillance activities in FY 2012. In a supplemental



Audit Report 01601-04-Hy                                                                         11
e-mail response dated June 27, 2011, AMS officials said that they will implement the proposed
action by July 2012.

OIG Position
We accept AMS’ management decision.

Recommendation 2
Develop and implement a system for identifying stores that are out-of-business or not PACA-
licensed and remove these stores from the retailer review lists sent to the States.

Agency Response
AMS officials stated that they have developed and implemented a process to ensure that only
PACA-licensed and operational retailers are scheduled for retailer reviews beginning with retail
surveillance activity conducted during FY 2011. Prior to selecting the final retail stores that will
be reviewed, AMS will confirm that all retail stores meet the definition of a "retailer" to ensure
that only those retail store locations that are licensed under PACA are reviewed for COOL
requirements. In addition, State reviewers are now instructed to contact all retailers prior to
conducting reviews to ensure the retail locations are still in operation. In a supplemental e-mail
response dated June 27, 2011, AMS officials stated that they had implemented the proposed
actions in June 2011.

OIG Position
We accept AMS’ management decision.

Recommendation 3
Initiate a process to begin verifying that retailers selected for past reviews were PACA-licensed
and required to adhere to COOL. For non-PACA-licensed retailers, contact these stores, and
inform them they do not need to adhere to COOL.

Agency Response
AMS officials stated that in 2010, 152 retail facilities (1.8 percent of total stores reviewed) that
were assigned to State cooperating agencies were later found to not be PACA-licensed.
Accordingly, these facilities were not subject to the COOL requirements. A letter was
subsequently mailed to each of these retailers informing them that they were not subject to the
COOL regulations or required to respond to the non-compliance letters they received.
In a supplemental e-mail response dated June 27, 2011, AMS officials added that they had
already completed this process for the reviews that were conducted in FY 2010. For the
remaining reviews that have been conducted since 2008, AMS will verify the PACA license
status for each retailer. For those retailers that were reviewed and found not to be PACA-
licensed, AMS will send a followup letter notifying them accordingly. AMS plans to complete
this review and notification process by July 2012.

Audit Report 01601-04-Hy                                                                           12
OIG Position
We accept AMS’ management decision.

Recommendation 4
Begin monitoring COOL compliance at smaller branches of PACA-licensed corporations that are
required to adhere to COOL.

Agency Response
AMS officials stated that a stratified random sample of smaller branches (i.e., retail or
convenience stores) of PACA-licensed corporations will be assigned to State and Federal
officials for retail surveillance activities in FY 2012. In a supplemental e-mail response dated
June 27, 2011, AMS officials said that they will implement the proposed action by July 2012.

OIG Position
We accept AMS’ management decision.

Finding 2: AMS Needs to Strengthen Retailer Review Procedures
Although AMS’ retailer review process identified specific retailer noncompliances with the
COOL labeling and recordkeeping requirements, the process did not include determining
whether there were systemic reasons for these noncompliances. In addition, AMS’ procedures
required minimal testing of label accuracy through record reviews of only five commodities per
retailer, regardless of the number of commodities a retailer stocked.18 This occurred because
AMS designed the noncompliance procedures to be uniform for all retailers regardless of the
extent of noncompliance, and because AMS placed a greater emphasis on ensuring that
commodities were labeled rather than ensuring the accuracy of the labels. As a result, AMS has
reduced assurance that commodity labels accurately describe a commodity’s country of origin
and noncompliant retailers address potential systemic problems.

AMS entered into cooperative agreements19 with all 50 States to assist in administering COOL.20
Under these written agreements with AMS, State agencies conduct reviews at retailers to verify
their compliance with COOL.21 The State reviewers use AMS-distributed procedures and
worksheets to perform the reviews. Retailer reviews include two sections to verify compliance
for the approximately 300 covered commodities that retailers might carry. These sections
include procedures for: (1) reviewing the labels on all covered commodities to determine
compliance with COOL labeling regulations; and (2) reviewing records that support the country-
of-origin labels for five covered commodities.

18
   AMS estimated that a typical PACA-licensed retailer sells an average of 300 covered commodities. AMS based
this estimate on completed 2009 retailer reviews.
19
   Under these agreements, States are required to conduct retailer reviews in accordance with the instructions
provided by AMS.
20
   Agricultural Marketing Act of 1946, Subtitle D, Section 284(c), as amended by the 2002 and 2008 Farm Bills.
21
   Agricultural Marketing Act of 1946, Subtitle D, Section 282(d), as amended by the 2002 and 2008 Farm Bills.

Audit Report 01601-04-Hy                                                                                         13
AMS uses a pass/fail system to rate retailer compliance with COOL. If a retailer review
identified one noncompliance, AMS rated the review as a fail and distributed noncompliance
letters regardless of the number or type of noncompliances. For example, we obtained
documentation that a retailer with a single noncompliance received the same treatment as one
with 100 noncompliances. As part of its standard process, AMS would not determine whether
the large number of noncompliances in the latter instance resulted from some systemic problem
at the retailer. The noncompliance letters that AMS sends to retailers are templates, with each
letter adjusted only to reflect the retailer’s identifying information and a list of noncompliances
identified during the review. Although AMS responded to retailers who reached out to the
agency with questions, agency officials did not initiate dialogue with retailers who had a
relatively high number of noncompliances after retailer review completion. AMS needs to
develop and implement a retailer compliance rating system that establishes thresholds or levels
of materiality regarding noncompliances to identify retailers who need additional assistance
complying with COOL.

AMS’ retailer review procedures require record reviews for only 5 of the approximately
300 covered commodities that a given retailer might carry, regardless of the actual number of
commodities that may be present. AMS relied on its statistician’s conclusion that selection of
five commodities for record review would be sufficient to determine whether a retailer had an
established recordkeeping system in place. However, AMS was unable to provide us with the
analysis that led to this conclusion. As noted above, neither the State reviewers nor AMS
evaluated a retailer’s recordkeeping system, regardless of the number of noncompliances
identified. In addition, AMS has no requirement to test additional commodities if
noncompliances are found in the five record reviews. We conducted our own retailer visits at
24 PACA-licensed retailers. Using AMS’ procedures, we pre-selected 5 covered commodities
and determined that 8 of the 104 commodities (7.7 percent) we sampled for records review were
labeled with an origin that was inconsistent with the origin information in the records.22 For
example, one of the retailers we visited had live Dungeness crab labeled with USA origin;
however, the invoice we reviewed to verify the origin identified Canada as the country of origin.
Because inaccurate labels are misleading to customers, AMS needs to improve its procedures for
ensuring that the labels retailers place on commodities are accurate.

AMS officials stated that they do not currently evaluate retailers’ overall compliance or identify
problem retailers who need additional support, but acknowledged the need for a compliance
rating system that would rate retailers’ overall compliance. AMS officials felt that they had not
gathered enough data to draw conclusions about how to accurately rate individual retailers’
compliance with the COOL requirements, even though they conducted 5,007 reviews in
2009 and 7,741 reviews in 2010. In January 2010, AMS conducted a one-time analysis of
3,871 of the CY 2009 reviews to provide a snapshot analysis of the COOL program; however,
AMS officials determined that this analysis was not comprehensive and was not intended to be
conducted on a regular basis. AMS needs to amend its retailer review process to rate retailer
compliance with COOL and follow up with retailers who are not complying.



22
  Although we attempted to review 120 commodities total, we tested 104 commodities for record review because
not all retailers had commodity categories on hand to test during our visits.

Audit Report 01601-04-Hy                                                                                       14
Recommendation 5
Develop and implement a retailer compliance rating system that establishes thresholds or levels
of materiality regarding noncompliances to identify retailers who need additional oversight.

Agency Response
AMS officials stated that the agency has amended its compliance and enforcement procedures to
include a Retail Review Compliance Rating Scale for stores subject to COOL surveillance
reviews. During a COOL retail store review, data and evidence is gathered, which is then used
to assess the extent to which a retail store is complying with COOL requirements. The amended
procedures were implemented and used to evaluate the FY 2010 retail reviews for further retailer
evaluations and enforcement actions. In a supplemental e-mail response dated June 27, 2011,
AMS officials clarified that the amended procedures were implemented in April 2011.

OIG Position
We accept AMS’ management decision.

Recommendation 6
Using the rating system, develop and issue noncompliance letters appropriate for the extent of
retailer noncompliance and amend the retailer review followup procedures to determine reasons
for retailer noncompliance.

Agency Response
AMS officials stated they developed and implemented a Retail Review Compliance Rating Scale
for COOL surveillance reviews in FY 2010 and identified approximately 1,200 stores that will
receive followup reviews during FY 2011. In addition, AMS developed a Compliance and
Enforcement Requirements document that contains enforcement policies and protocols and
defines good faith effort and willful violations. Using this document, followup reviews will be
analyzed to determine whether a retailer's corrective and preventative measures are adequate and
the retailer is acting in good faith or whether it appears that the retailer is willfully violating the
statute and regulation.

In a supplemental e-mail response on June 27, 2011, AMS officials stated further that they had
implemented the Retail Review Compliance Rating Scale in April 2011. Using this scale, AMS
has identified approximately 1,200 stores that will receive followup reviews in FY 2011. These
reviews are currently being conducted with an estimated 50 percent having already been
completed. The remaining followup reviews will be completed by September 2011. The results
of these reviews will be analyzed to determine whether it appears the retailers are willfully
violating the regulations or whether additional retailer education is warranted

OIG Position
We accept AMS’ management decision.


Audit Report 01601-04-Hy                                                                            15
Recommendation 7
Develop and implement procedures to test additional commodities if errors are identified during
record reviews and evaluate retailers’ recordkeeping systems.

Agency Response
AMS officials stated that they have implemented procedures to assess the effectiveness of a
retailer's recordkeeping system. In the event that a retailer meets the criteria for a followup
review and had a recordkeeping finding in the initial review, additional records (a total of 8) will
be reviewed during the followup review to verify the retailer is conveying accurate country of
origin information and retaining complete records for 1 year.

In a supplemental e-mail response dated June 29, 2011, AMS officials addressed an OIG concern
about testing additional records during the initial review. They proposed that in the event that
records are made available during the initial retail surveillance review and noncompliances are
noted, an additional eight records for covered commodities will be requested and evaluated
during the initial review. AMS plans to implement the revised recordkeeping evaluation
procedures by August 2011.

OIG Position
We accept AMS’ management decision.

Finding 3: AMS Needs to Improve the Timeliness of Its Evaluation of
Retailer Review Documentation
AMS did not timely evaluate the retailer reviews completed by State agencies in CY 2009 and
CY 2010. Moreover, once the reviews were completed, AMS did not timely issue
noncompliance letters requiring corrective actions from retailers found to be noncompliant.
These problems occurred because AMS did not permanently allocate enough resources to
effectively evaluate the retailer reviews the State agencies completed. At the beginning of our
audit, AMS had 5 permanent employees dedicated to evaluating the 5,007 reviews completed in
2009. Unless retailers receive noncompliance letters from AMS timely, they may remain
noncompliant longer since they are not required to take corrective action until they receive these
letters. We found that in 1,719 of the 5,397 reviews (32 percent) we analyzed with
noncompliances during CY 2010, AMS did not formally notify retailers that they were out of
compliance for at least 60 days following the completion of onsite reviews.

AMS’ program guidelines specify that after a retailer review file is received from a State agency,
AMS should evaluate the file and take any necessary actions against the retailer within 3023 days
of receipt.24 COOL procedures require AMS to complete evaluations of State-submitted retailer


23
   The 30 day policy was implemented on August 25, 2010. Prior to the issuance of this policy, AMS’ policy
required evaluation of retailer reviews within five days of receiving them from the States.
24
   COOL Program Operation Procedures and Employee Handbook, Section 1.10(b).

Audit Report 01601-04-Hy                                                                                     16
reviews prior to distribution of compliance letters.25 Although State reviewers notify retailer
officials of any noncompliances identified at the time of the review, retailers are not required to
take corrective action until the compliance letters are received.26

State agencies completed 5,007 reviews during the CY 2009 review cycle. As of February 17,
2010, we determined that 1,003 of the 5,007 CY 2009 reviews (20 percent) had not been
evaluated by AMS. Once we notified AMS of this problem, they trained 14 temporarily
reassigned AMS employees in March 2010 to reduce the backlogged reviews and issue
noncompliance letters as needed. As of June 24, 2010, we determined that AMS officials
completed their evaluation of the CY 2009 reviews and distributed noncompliance letters to all
retailers found to be out of compliance. However, the insufficient resources assigned to evaluate
the 2009 reviews resulted in backlogs and untimely issuance of noncompliance letters for the
CY 2010 review cycle. AMS believes that a new database they plan on implementing in August
2011 will eliminate backlogs through electronic data input and automatic data updating. We
were not able to analyze the database during fieldwork because AMS was in the process of
developing it.

State agencies completed 7,741 reviews during the CY 2010 review cycle. As of October 4,
2010, AMS evaluated all of the retailer reviews that the State agencies had completed in
CY 2010. However, AMS did not distribute noncompliance letters to 84 of these retailers for
60 days or more because AMS employees were working to eliminate the backlog from the
CY 2009 review cycle. Without timely distribution of noncompliance letters, retailers may
remain noncompliant longer since they are not required to take corrective action until they
receive these letters.

We believe that AMS needs a permanent solution for evaluating retailer review documentation.
We evaluated 5,397 of the 5,528 total CY 2010 reviews with findings for adherence to AMS’
30-day internal policy. AMS met its 30-day internal policy for only 1,667 (31 percent) of these
reviews, was unable to issue noncompliance letters within 60 days of review for 1,719 reviews
(32 percent), and in one instance, was 222 days late. Although AMS reduced its backlog in
2010, it still needs to develop and implement a solution to timely issue noncompliance letters.

Recommendation 8
Implement procedures to ensure that AMS’ evaluations of retailer reviews and distribution of
noncompliance letters are completed in a timely manner.

Agency Response
AMS officials stated that the agency has reduced the processing time of retail store reviews since
implementation of the Final Rule in March 2009, with the mean processing time going from
49 to 34 days. As of June 2011, the COOL Program has hired an additional four full-time staff
members to assist with processing retail store reviews in an effort to meet the 30-day target
processing time from date of submission to date of noncompliance letter. In addition, the COOL

25
     COOL Program Operation Procedures and Employee Handbook, Section 1.5(a).
26
     COOL Retail Audit Workbook.

Audit Report 01601-04-Hy                                                                          17
FACTS database is under development and scheduled to be implemented in fall 2011, which will
also help reduce the processing time.

OIG Position
We accept AMS’ management decision.




Audit Report 01601-04-Hy                                                                 18
Section 2: Oversight and Enforcement
Finding 4: AMS Needs to Improve Enforcement of COOL Regulations
Retailers required to adhere to COOL continued to have significant numbers of repeat
noncompliances, after being cited for those same noncompliances by AMS. This occurred, in
part, because AMS officials did not identify and investigate repeat violators of the COOL
requirements or assess monetary penalties where appropriate. Instead, AMS allowed repeat
violators 30 days to submit corrective actions in response to noncompliances identified during
followup reviews without any further investigation. As a result, AMS has not issued any civil
penalties since the final rule went into effect in 2009, even though such penalties may have been
warranted in some cases. In addition, AMS does not have adequate assurance that retailers are
adhering to all necessary requirements of COOL. When comparing the results of
CY 2009 retailer reviews with followup CY 2010 reviews at the same retailers, we noted
24 instances in which retailers had recurring noncompliances within the same commodity
categories, such as not providing a country of origin label for vegetables.

COOL requires that if a retailer (or person engaged in the business of supplying a covered
commodity to a retailer) is in violation of the Act, the Secretary shall notify the retailer of the
determination and provide the retailer a 30-day period, during which the retailer may take
necessary steps to comply with the Act. If, on completion of the 30-day period, the Secretary
determines that the retailer has not made a good faith effort to comply and continues to willfully
violate the Act, the Secretary shall provide notice and an opportunity for a hearing with respect
to the violation, and may fine the retailer up to $1,000 per violation.27

We found, however, that AMS has not issued any civil penalties since the implementation of
COOL. The Act did not specifically explain how enforcement actions should be carried out,
including the circumstances under which violations would warrant the imposition of monetary
penalties. AMS is in the process of drafting new procedures but has not finalized language as to
what types of violations constitute a willful violation. AMS defined violations in another policy
document as either: (1) failing to label a product; (2) mislabeling a product; or (3) failing to
maintain records.28 This document, however, does not define what constitutes a willful
violation. OIG maintains that AMS needs to develop a clear definition of what types of
violations constitute a willful violation, and specify at what point a retailer might be subject to
monetary penalties.

Although our review was not designed to identify actual cases of retailers willfully violating
program regulations, we did identify instances where the nature of the violations should have
warranted further investigation by AMS. AMS required States to perform followup reviews at a
pre-determined number of retailers who were reviewed in the prior review cycle. AMS selects
retailers for a followup review if the retailers had at least one noncompliance in their prior
review. However, AMS did not use these followup reviews to identify and investigate frequent
violators, to determine if these retailers willfully violated program regulations, or to ascertain
whether retailers made a good faith effort to adhere to COOL. Instead, AMS officials treated

27
     Agricultural Marketing Act of 1946, as amended by the 2008 Farm Bill, Section 283.
28
     COOL Surveillance Review Procedures for Retail Facilities, revised April 23, 2009.

Audit Report 01601-04-Hy                                                                         19
followup reviews the same as an initial review. After we pointed this out to AMS officials, they
realized that they needed to make better use of followup reviews and stated they would
implement procedures to do so in the future.

We compared the results of retailer reviews completed in 2009 to the results of followup reviews
completed in 2010 to determine if retailers remained noncompliant. Continued noncompliance
could be an indicator that retailers willfully violated COOL regulations or did not make a good
faith effort to comply with COOL. We analyzed the 1,005 followup reviews AMS initiated
between February 2010 and September 2010, and identified 29 retailers with at least 10 more
noncompliances in the followup review than the initial review. Twenty-four of these 29 retailers
had noncompliances in the same commodity category in both the initial review and followup
review. Twenty-one of the 29 retailers had at least 10 more commodities that did not have a
country of origin label in the followup review than the initial review. In addition, four retailers
had noncompliances for the same commodity in both the followup review and the initial review.
State reviewers are required to bring noncompliances to retailers’ attention during retailer
reviews; therefore, we concluded, based on our fieldwork, that retailers should be more aware of
COOL after retailer reviews.

AMS officials acknowledged that they did not have a process to identify retailers who may be
willfully violating COOL requirements or are not making a good faith effort to correct
previously identified noncompliances. They also stated that the majority of their resources are
used to ensure reviews are processed and retailer responses are received; therefore, they did not
focus resources on identifying potential repeat violators.

We concluded that AMS needs to implement procedures to monitor followup reviews to identify
retailers whose actions may warrant stronger enforcement actions, including the imposition of
monetary penalties. Without procedures to identify and more closely monitor significantly
noncompliant retailers and issue civil penalties when warranted, AMS monitoring program for
COOL is less effective

Recommendation 9
Develop and implement written procedures to monitor and provide timely followup with retailers
who may be willfully violating COOL regulations or who do not make a good faith effort to
comply with COOL regulations. These procedures should include comparing followup reviews
to prior reviews completed at applicable retailers.

Agency Response
AMS has implemented Compliance and Enforcement Requirements, which define good faith
effort and willful violations. Any review with 10 or more findings will trigger a followup review
within 18 months. Federal officials conduct all followup reviews. The data collected from these
reviews will be analyzed to determine whether adequate corrective measures have been
implemented. In a supplemental e-mail response dated June 27, 2011, AMS officials said that
they implemented the new procedures in April 2011.




Audit Report 01601-04-Hy                                                                         20
OIG Position
We accept AMS’ management decision.

Recommendation 10
Develop procedures to investigate potentially willful violations and issue civil penalties. This
should include specific criteria for the types of violations that warrant civil penalties.

Agency Response
AMS officials stated that the COOL Compliance and Enforcement Requirements define good
faith effort and willful violations and also depict specific criteria for the types of violations
warranting civil penalties. Since the Compliance and Enforcement document has been
implemented, AMS has referred 137 cases of possible willful violations to the Office of the
General Counsel for further action, including potential civil penalties. In a supplemental e-mail
response dated June 27, 2011, AMS officials said that they implemented the new procedures in
April 2011.

OIG Position
We accept AMS’ management decision.

Finding 5: AMS Needs to Improve Its Oversight of State Agencies
In at least two States, there were indications that reviewers were inconsistent in their
interpretation of COOL requirements. This occurred because AMS did not routinely monitor the
performance of State reviewers as they conducted retailer reviews or require that the States
themselves perform this function. AMS allocated approximately $8.1 million between
CY 2008 and 2010 for the States to conduct retailer reviews and did not dedicate any resources
to monitor how the States performed these reviews. Without an improved nationwide oversight
process, AMS has reduced assurance that State reviewers consistently perform reviews and
identify retailer noncompliances. For example, Kentucky reviewers found one or more
noncompliances in 15 of the 83 (18 percent) reviews they completed; in contrast, Missouri
reviewers identified one or more noncompliances in 96 of 100 reviews (96 percent) completed.
In addition, two California reviewers we interviewed had different opinions on what is
considered an inaccurate country of origin declaration.

State cooperative agreements require AMS to generally supervise all enforcement activities
under these agreements; initiate any required proceedings under the Act or regulation that are
warranted following a review; and make further investigations within the cooperator’s State
when deemed necessary.29 One of the responsibilities of State agencies under this cooperative




29
     Section II.A of State cooperative agreements.

Audit Report 01601-04-Hy                                                                           21
agreement is to conduct retailer review activities in accordance with the instructions specified by
AMS.30

AMS allows States to create their own enforcement infrastructure for completing retailer
reviews.31 Each of the three States we visited had either one or two supervisors assigned to
manage retailer reviews, with the remaining COOL staff identified as reviewers. During the
CY 2010 review cycle, the 50 States trained a total of 488 reviewers, with individual States
having anywhere between 2 and 104 reviewers. However, we determined that AMS did not
implement any oversight procedures to ensure that the reviewers consistently and accurately
completed retailer reviews.

We identified inconsistencies in the number of noncompliances identified by State reviewers
during retailer reviews in CY 2009 and CY 2010. For example, in 2009, 73 percent of the stores
reviewed nationwide had at least one noncompliance identified. However, there were wide
discrepancies between some States. Kentucky reviewers found one or more noncompliances in
15 of the 83 (18 percent) reviews they completed; in contrast, Missouri reviewers identified one
or more noncompliances in 96 of 100 reviews (96 percent) completed.

We examined the results of reviews completed in the three States we visited and identified other
possible inconsistencies, including different understandings among State reviewers of what
qualifies as a noncompliance. For example, 4 reviewers completed 554 out of the 556 reviews in
California in 2009, and each of these 4 reviewers completed at least 100 reviews. These
4 reviewers issued 333 noncompliances for inaccurate origin declarations. 32 Two of these
reviewers identified 94 percent of these noncompliances while the other 2 reviewers identified
only 6 percent of them. We interviewed 2 of the 4 California reviewers including 1 of the
reviewers who identified at least 151 noncompliances. We asked her if she would write a
noncompliance if she saw inaccurate origin declaration. She stated that she would, and this is
reflected in the number of noncompliances she identified in this area. We also interviewed the
reviewer who identified 19 noncompliances in this category. When presented with the same
scenario, she stated that she would not consider this to be inaccurate origin declaration as long as
the records supported either the bin sign or the individual labels, which would explain the very
few noncompliances she noted in that category. AMS agreed that reviewers inconsistently
conducted retailer reviews. In addition, AMS officials agreed that there is a need to periodically
evaluate State reviewers’ performance of retailer reviews.

AMS officials separated the 50 States, Puerto Rico, and the District of Columbia into 2 different
geographic regions to assist in evaluating the results of retailer reviews. This structure assisted
AMS officials in identifying and following up on broad issues within a specific locale. For
example, AMS reviewers identified trends relating to compliance at New Jersey retailers. New
Jersey had three reviewers to complete the 154 reviews assigned by AMS. One of the reviewers
submitted documentation showing that she completed 30 reviews in 3 days, recording no
noncompliances and finding all of the retailers to be fully compliant. This result is inconsistent
with AMS’ conclusion that the average review takes 1 to 4 hours to complete. Noting the high
30
   Section II.B.2 of State cooperative agreements.
31
   Agricultural Marketing Act of 1946, as amended by the 2008 Farm Bill, Section 284(c).
32
   Inaccurate origin declaration occurs when bin signage is different than the individual labels on the items in the
bin.

Audit Report 01601-04-Hy                                                                                               22
number of reviews completed by this reviewer without any noncompliances, AMS officials
analyzed the performance of all three New Jersey reviewers and found that 94 percent of the
stores they had reviewed as of October 2009 were fully compliant. When informed of this, the
New Jersey COOL manager determined that these three reviewers were not adequately trained.
As a result, the three New Jersey reviewers attended AMS COOL training in Atlanta, Georgia, in
February 2010, and their managers implemented more stringent oversight of these three
reviewers. Despite being alerted to this problem in New Jersey, AMS did not consistently
analyze nationwide performance to identify other trends or inconsistencies.

During our audit, AMS developed procedures for their Audit, Review, and Compliance Branch
to conduct onsite retailer review evaluations for 1.5 percent of the retailer reviews conducted in
each State. Based on the total amount of retailer reviews completed in CY 2010, the Audit,
Review, and Compliance Branch would conduct 116 onsite review evaluations from the
CY 2010 review cycle. During the evaluation, Audit, Review, and Compliance Branch auditors
interviewed store officials who were present during the retailer reviews to determine if the State
reviewers conducted reviews in accordance with COOL. AMS developed a checklist for Audit,
Review, and Compliance Branch auditors to use during this evaluation that includes 30 questions
regarding the retailer review completed.

We agree that these procedures will help AMS evaluate performance of State reviewers during
retailer reviews. However, AMS needs to implement a process to periodically evaluate overall
State performance of retailer reviews. This process should identify those States that appear to
have deficiencies in evaluating COOL compliance. For these States, AMS should develop
compensating controls to ensure the States improve their ability to conduct retailer reviews.

Recommendation 11
Implement a process to periodically evaluate State performance of retailer reviews. For State
agencies determined to have deficiencies in evaluating COOL compliance, perform followup as
necessary to improve their ability to conduct retailer reviews.

Agency Response
AMS officials stated that they are improving and expanding training for State and Federal
reviewers by providing six in-depth training sessions in nationwide locations. The expanded
training will be provided for up to five designated reviewers per State. AMS is also strengthening
the examination process by having the AMS officials administer and grade all of the exams and
raising the minimum test score to become a certified COOL retail reviewer. In addition, AMS
will evaluate State performance of retail reviews by comparing reviews by State to determine
high noncompliance States, low non-compliance States to the national average. AMS will
identify outlier States and investigate reasons for outlier status on a quarterly basis through direct
observation. Performance issues will be addressed through additional training and other actions,
as deemed appropriate to address the deficiency. If performance does not improve, AMS will
suspend either the individual reviewer or a State’s COOL participation overall, until performance
issues have been effectively addressed. In a supplemental e-mail response dated June 27, 2011,
AMS officials said that they will implement the proposed action by July 2011.



Audit Report 01601-04-Hy                                                                           23
OIG Position
We accept AMS’ management decision.

Finding 6: AMS Needs to Improve Communication with Retailers
Although we found most retailers are aware of COOL, AMS needs to make additional efforts to
ensure all retailers are aware of the COOL requirements. Of the 24 retailers we visited,
11 retailers stated that they did not receive COOL materials from AMS; 3 of these further stated
that they were not aware of COOL regulations and consequently did not label for country of
origin. This occurred because AMS did not have a process in place to analyze the results of
retailer reviews and distribute formal guidance to all retailers as needed. In addition, we
concluded AMS officials believed that their education and outreach initiatives—such as the
COOL website, webinars, and open forums—would sufficiently inform all retailers of COOL
regulations and requirements. Based on the results of our retailer visits, we believe that unless
AMS more proactively communicates its requirements to retailers, the agency will have reduced
assurance that all retailers are properly labeling country of origin for all covered commodities.

According to Office of Management and Budget Circular No. A-123, management is responsible
for developing and maintaining internal control activities that ensure the agency communicates
with outside organizations.33 Although AMS has a process to contact noncompliant retailers,
AMS does not have internal procedures for communicating COOL requirements directly to all
retailers.

During the 6-month period following the effective date of the COOL requirements, AMS
conducted an industry education and outreach program concerning the provisions and
requirements of the final rule. Referred to as a period of “informed compliance,”34 AMS
conducted various activities during this time, including developing a COOL website, hosting
webinars with industry and economic groups, creating retailer and supplier brochures,
establishing a COOL email inbox for public input, and hosting open forum sessions that
educated retailers, suppliers, producers, and trade associations. Although AMS conducted
education and outreach initiatives through the COOL informed compliance period, the agency
still needs to be more diligent to ensure it continuously informs all retailers, particularly new
retailers, of COOL requirements.

We conducted retailer reviews at 24 PACA-licensed retailers. During our visits, we received
feedback from 20 of these regarding whether they used or received AMS-distributed guidance
for COOL. Eleven of the 20 retailers said they did not receive materials from AMS. Of those
11, 8 retailers learned of the COOL requirements from sources other than AMS and the
remaining 3 stated that they were not aware of the COOL regulations. Of the 20 retailers, 6 used
AMS materials on the COOL website to implement COOL and 3 retailers received guidance
directly from AMS.



33
     OMB Circular No. A-123 “Management’s Responsibility for Internal Control,” as revised December 21, 2004.
34
     COOL Final Rule, January 15, 2009, Page 2701.

Audit Report 01601-04-Hy                                                                                        24
AMS allowed retailers to use different methods to label covered commodities with country of
origin information, including labels on the individual product, bulk bin, carton, crate, barrel,
cluster, or consumer package.35 A bulk container may contain covered commodities from more
than one country only if all countries of origin are listed on the label.36 When a label contains
more than one country of origin, the retailer cannot use “or” and “and/or” on the label. 37 For
example, “Product of USA and Honduras” is acceptable; however, statements such as “Product
of USA and/or Honduras” and “Product of USA or Honduras” are not acceptable origin labels.
Retailers may abbreviate country names on labels provided the abbreviations are approved under
Customs and Border Protection Agency labeling requirements.38

During our 24 visits to PACA-licensed retailers, we identified 4 examples of areas where
retailers deviated from AMS’ COOL labeling requirements. These noncompliances occurred
because retailers did not correctly interpret or were not aware of COOL requirements:

     Lack of Country of Origin Label: We identified 20 retailers who did not always label all
     covered commodities with country of origin. Six retailers did not always label all fish and
     shellfish with method of production. Only four retailers, two club stores, and two
     supermarkets labeled all covered commodities for COOL.

     Inaccurate Origin Declaration: We identified 16 retailers who did not accurately label the
     country of origin for the covered commodities because the bin labels and individual labels on
     the products contained conflicting countries of origin. For example, a bin label stated “USA”
     and the individual products in the bin had three separate individual labels that included
     “Mexico,” “USA,” and “Canada.” This sort of label would be acceptable if the bin label
     included “USA, Mexico, and Canada,” but we concluded that the observed label was not
     compliant because a bulk container may contain covered commodities from more than one
     country only if all countries of origin are listed on the label.

     Unacceptable Abbreviations and Form of Origin: We identified two retailers who used
     unacceptable abbreviations for countries of origin. For example, one retailer incorrectly
     abbreviated Mexico as “Mexi.” In addition, three retailers used “or” and “and/or” in their
     country of origin labels. For example, one retailer labeled a product as “USA or Canada.”

     Independent Retailers Not Aware of COOL: We visited three independent retailers who were
     not aware of COOL regulations and consequently did not label for country of origin. 39

AMS officials tracked completed retailer review data for all 50 States. However, they did not
implement a process to analyze these data which prevented them from identifying and correcting
common adverse trends to ensure that retailers consistently follow COOL. According to AMS
data, over 36,000 retailers are licensed under PACA.40 AMS officials believed they did not
conduct enough reviews to analyze their results and form conclusions about the entire universe

35
   Title 7 CFR Part 65.300 (a).
36
   Title 7 CFR Part 65.400 (d).
37
   COOL Final Rule, January 15, 2009, page 2670.
38
   Title 7 CFR Part 65.400 (e).
39
   An independent retailer is a retailer with three or less locations nationwide.
40
   COOL Final Rule, January 15, 2009, Table 9, page 2698.

Audit Report 01601-04-Hy                                                                           25
of retailers. However, AMS has conducted reviews at 35 percent (12,507) of the estimated total
retailers subject to COOL since the program's implementation. In January 2010, AMS
performed a one-time analysis of completed reviews to provide a snapshot analysis of the COOL
program. Based on that analysis, we believe that AMS has sufficient information to begin the
process of identifying problematic areas in the COOL requirements and issue guidance to
promote increased adherence to COOL requirements among retailers. AMS officials also stated
that as a result of this audit, they would more closely analyze the corrective actions submitted by
retailers to determine why problems exist

Recommendation 12
Distribute specific guidance regarding labeling requirements, abbreviations, and acceptable
forms of origin to all retail establishments subject to COOL.

Agency Response
AMS officials stated that prior to implementation of the final rule, AMS conducted extensive
outreach and education efforts, which reached most of the regulated community. Nevertheless,
in March 2011, AMS distributed a comprehensive package of materials about COOL to the
approximately 37,000 retail firms that AMS identified as being covered by COOL. The packet
includes frequently asked questions about COOL regulatory requirements and enforcement
activities, copies of brochures in English and in Spanish for retailers to use with their employees
and customers, and a poster that provides an easy-to-use summary of covered commodities,
quick labeling tips, helpful hints and acceptable abbreviations. In addition, contact information
for the COOL Branch officials and website address were also provided.

OIG Position
We accept AMS’ management decision.

Recommendation 13
Implement a system to analyze the results of retailer reviews and retailer corrective actions and
identify noncompliance trends that exist on a nationwide basis and, as applicable, corporate-wide
basis.

Agency Response
AMS has designed and developed an automated database management system (called COOL
FACTS) that will identify various trends based on the data in the system. The COOL FACTS
project is expected to be implemented in fall 2011.

OIG Position
We accept AMS’ management decision.




Audit Report 01601-04-Hy                                                                         26
Recommendation 14
Implement a process to develop and disseminate guidance to correct the noncompliances
identified in the trend analysis.

Agency Response
AMS will disseminate information on noncompliances identified in the trend analysis through its
education and outreach efforts. (e.g., webinars, speaking engagements, etc), future global
mailings to retailers, and in interactions with individual retailers concerning their corporate
performance. In a supplemental e-mail response dated June 27, 2011, AMS officials said that
they will implement the proposed action by July 2012.

OIG Position
We accept AMS’ management decision.




Audit Report 01601-04-Hy                                                                     27
Scope and Methodology
We performed our audit at AMS Headquarters in Washington, DC, 3 State agencies, and
32 retailers between February 2010 and October 2010. Following our review, it was determined
that only 24 of the 32 retailers were PACA-licensed. To accomplish our objectives, we
evaluated AMS’ implementation of its policies and procedures between January 2008 and
October 2010.

AMS Headquarters

To evaluate AMS’ oversight, we held discussions with officials at AMS’ Livestock and Seed;
COOL Branch; FV Program; and Meat Grading and Certification Branch. We also obtained data
and documentation on all retailer reviews completed between 2008 and 2010 to help us analyze
State retailer review performance as well as AMS’ oversight of the States and retailers.

State Agencies

We visited three State agencies to help us evaluate AMS’ oversight of COOL. We analyzed the
5,007 retailer reviews completed in 2009 by the reviewers in all 50 States to determine the
percentage of stores that were found to have at least one noncompliance. We selected States that
had a high percentage of stores with noncompliances as this may indicate strong oversight by the
State, as well as States with a low percentage of stores with noncompliances as this may indicate
weak oversight. In addition, we used AMS’ contractor data to select States with a large number
of stores to ensure the most audit coverage. Based on these criteria, we visited:

   ·   Pennsylvania Department of Agriculture,
   ·   California Department of Food and Agriculture, and
   ·   Texas Department of State Health Services.

Retailers

Following our review of the State agencies, we conducted retailer reviews similar to the ones
completed by State reviewers in each of the States we visited. Half of our visits were to retailers
already reviewed by State reviewers while half were to retailers never reviewed by the State. In
addition, we visited retailers based on store type, including corporately owned, independently
owned, and club stores.

We reviewed 24 retailers in Pennsylvania and California, including 4 club stores. In addition, we
reviewed eight retailers in Texas. Following our California visit, we determined that club stores
were almost always fully compliant with COOL requirements. Therefore, we did not visit two
club stores in Texas that we originally planned to visit. In total we visited four less stores in
Texas than in the other two States we visited.

Our audit was conducted in accordance with Generally Accepted Government Auditing
Standards. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our


Audit Report 01601-04-Hy                                                                         28
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions. In addition, AMS provided OIG with data related to retailer reviews
completed and data relating to State cooperative agreements. We make no representations
regarding the accuracy or reliability of these data as they were not evaluated and information
system controls were not part of our audit objective.




Audit Report 01601-04-Hy                                                                         29
Abbreviations
Act............................... Agricultural Marketing Act of 1946
ALERT........................ Anti-Fraud Locator Using Electronic Benefits Transfer Retailer
                              Transactions
AMS............................ Agricultural Marketing Service
CFR. ............................ Code of Federal Regulations
COOL.......................... Country of Origin Labeling
CY ............................... Calendar Year
2002 Farm Bill ............ Farm Security and Rural Investment Act of 2002
2008 Farm Bill ............ Food, Conservation, and Energy Act of 2008
FV ............................... Fruit and Vegetable Program
OGC ............................ Office of the General Counsel
OIG ............................. Office of Inspector General
PACA.......................... Perishable Agricultural Commodities Act of 1930
U.S. ............................. United States
USDA.......................... United States Department of Agriculture




Audit Report 01601-04-Hy                                                                       30
Exhibit A - Summary of Monetary Results



         Finding Number         Description           Amount              Category
         1                   AMS reimbursed           $296,400        Questioned
                             State agencies                           Costs, No
                             for retailer                             Recovery
                             reviews
                             conducted at
                             non-PACA-
                             licensed and out-
                             of-business
                             retailers

             Total Monetary Results                   $296,400


This table provides a brief description of the questioned costs associated with Finding 1, the
dollar amount, and the category of the questioned costs.




Audit Report 01601-04-Hy                                                                         31
Agency Response




                           USDA’S



    AGRICULTURAL MARKETING SERVICE



            RESPONSE TO AUDIT REPORT




Audit Report 01601-04-Hy               32
                                                                  1400 Independence Avenue, SW.
                                                                  Room 3071-S, STOP 0201
                                                                  Washington, DC 20250-0201




DATE:         June 10, 2011

TO:           Gil H. Harden
              Assistant Inspector General for Audit
              Office of Inspector General

FROM:         Rayne Pegg /s/
              Administrator

SUBJECT:      AMS’ Response to OIG Audit #01601-04-Hy: Implementation of
              County of Origin Labeling


We have reviewed the subject audit report and agree in principle with the findings and
recommendations. Our detailed response, including actions already taken and actions to be taken
to address the recommendations, is attached.

If you have any questions or need further information, please contact Frank Woods, Internal
Controls and Audits Branch Chief, at (202) 720-8836.

Attachment
                        AGRICULTURAL MARKETING SERVICE
This is the response of the Agricultural Marketing Service (AMS) to an audit of its country of
origin labeling (COOL) program by the Department of Agriculture’s (USDA) Office of the
Inspector General (OIG). The audit results, conclusions, findings and recommendations are set
forth in Audit Report 01601-04-Hy.

BACKGROUND:

The Farm Security and Rural Investment Act of 2002 (2002 Farm Bill) and the Food,
Conservation, and Energy Act of 2008 (2008 Farm Bill) amended the Agricultural Marketing
Act of 1946 to require retailers to notify their customers of the country of origin for specific
commodities in addition to the method of production for fish and shellfish. The COOL final rule
became effective in March 2009, and enforcement activities began for all covered commodities
later that year. AMS enforced COOL requirements only for fish and shellfish items from
October 2006 to March 2009, as provided by the relevant statutory authorities. Funding of the
COOL program began in fiscal year (FY) 2006 at a level that provided minimal oversight of fish
and shellfish compliance. Additional funding was not appropriated until late FY 2009 to support
administration and oversight of all covered commodities.

OIG officials began auditing the COOL program in February 2010, less than 10 months after the
final rule became effective and less than 9 months after additional funds were provided to
administer the program. During the initial months of program implementation, AMS
concentrated resources on outreach activities with retail and industry trade associations,
individual retail officials, consumer groups and others to educate interested parties on COOL
requirements and promote compliance with the new regulations. Prior to and during the
timeframe of the OIG audit, AMS also conducted approximately 12,000 retail store reviews
through Federal and State cooperators to assess the level of compliance. AMS’ strategy for the
COOL Program involved collaborating with all 50 States to leverage available resources and
minimize the need to expand internal AMS permanent resources until additional data was
available on retail store compliance. As additional funding was provided in late FY 2009 and
performance data collected, AMS began to expand its internal infrastructure of permanent
employees and data management system. Establishment of the program also focused on the
recognition that COOL is a retail labeling law designed to provide information to consumers so
they can make informed decisions about the origin of the foods they purchase. COOL is not a
food safety initiative that provides or ensures safe and wholesome food products, nor does it
provide nutritional information or consumer warnings. AMS considered other Federal labeling
requirements and enforcement policies, and designed a robust onsite review process appropriate
to accomplish the Congressional intent of the Act.

AMS officials constantly monitor ongoing program activities, retail and industry performance,
best industry practices, consumer feedback and published research findings on country of origin
labeling. Based upon these and other sources of information and data, changes are made each
year to the compliance and enforcement procedures to continuously improve the effectiveness of
the COOL program to provide consumer information and overall program controls.

OVERVIEW:

As indicated by OIG, the objective of the audit was to evaluate the implementation of the COOL
final rule that went into effect in March 2009. In addition, OIG attempted to determine if AMS
ensured that all retailers adequately met COOL requirements. OIG also evaluated the adequacy
and consistency of the oversight provided by AMS personnel to ensure requirements were met.

In response to OIG’s findings, AMS believes that it currently exercises significant and
substantial management controls over the COOL program, as evidenced by the continuing high
level of correct product labeling in the over 37,000 retail stores nationwide subject to the
requirements. That being said, AMS views the recommendations contained in the audit report as
an additional opportunity to contribute to the Agency’s ability to continuously improve the
COOL program.

Separate and apart from the OIG audit and recommendations, AMS has initiated external
compliance reviews and a number of other actions to strengthen program controls and COOL
accuracy. It is important to note that many of the changes to be implemented by AMS for the
future will go well beyond the recommendations provided by OIG. AMS will implement very
prescriptive changes in areas such as retail and supplier sampling frequency based upon risk
assessment, the training of State cooperators, the conduct of follow-up reviews, identification of
“willful violators”, analysis of retail review data to better target enforcement resources, and
engaging in enforcement actions to address the non-compliances of “willful violators” which will
serve as an incentive for compliance by all retailers. All of the revisions planned by AMS will
be compatible with or serve to enhance the OIG recommendations.
OIG FINDINGS AND RECOMMENDATIONS AND AMS RESPONSE


   Recommendation Summary
   We recommend that AMS develop and implement a process for selecting only PACA-
   licensed retailers for retailer reviews. We also recommend that AMS officials develop and
   implement a retailer compliance rating system and appropriate followup procedures for
   retailers identified as noncompliant and promptly issue noncompliance letters. In addition,
   we recommend that AMS enhance its enforcement procedures, periodically evaluate State
   performance of retailer reviews, and improve communications with retailers.

   Agency Response
   AMS generally agrees with the report’s 14 recommendations.

FINDING 1. AMS needs to improve the retailer selection process.

   Recommendation 1. Conduct an analysis of retailers with under $2 million in annual sales to
      determine if PACA-licensed retailers are in this category of the contractor's database. If
      this analysis does identify PACA-licensed retailers having under $2 million in annual
      sales, develop parameters to include a percentage of stores with under $2 million in
      annual sales when requesting retailers for review.

AMS Response
        As stated in the final rule, AMS estimates that there are over 37,000 retail stores subject
to the COOL regulation. At the time of the audit, AMS focused its resources on retail stores with
over $2 million in grocery sales to ensure that the greatest number of covered commodities was
reviewed. In response to the recommendation, AMS will purchase a list of retailers with $1-2
million in grocery sales from our contractor, and match the store locations on that list against the
PACA data base to identify PACA-licensed entities. A stratified random sample of identified
PACA-licensed retail stores in the $1-2 million sales range will be assigned to State and Federal
officials for retail surveillance activities in FY 2012.

   Recommendation 2. Develop and implement a system for identifying stores that are out-of-
      business or not PACA-licensed and remove these stores from the retailer review lists sent
      to the States.

AMS Response
       AMS has developed and implemented a process to ensure only PACA-licensed and
operational retailers are scheduled for retailer reviews beginning with retail surveillance activity
conducted during Fiscal Year (FY) 2011. Prior to selecting the final retail stores that will be
reviewed, AMS will confirm that all retail stores meet the definition of a “retailer” to ensure that
only those retail store locations that are licensed under PACA are reviewed for COOL
requirements. In addition, State reviewers are now instructed to contact all retailers prior to
conducting reviews to ensure the retail locations are still in operation.
   Recommendation 3. Initiate a process to begin identifying that retailers selected from past
      reviews were PACA-licensed and required to adhere to COOL. For non-PACA-licensed
      retailers, contact these stores and inform them they do not need to adhere to COOL.

AMS Response
        In 2010, 152 retail facilities (1.8% of total stores reviewed) that were assigned to state
cooperating agencies were later found to not be PACA licensed. Accordingly, these facilities
were not subject to the COOL requirements. A letter was subsequently mailed to each of these
retailers informing them that they were not subject to the COOL regulations or required to
respond to the non-compliance letters they received.


   Recommendation 4.
Begin monitoring COOL compliance at smaller branches of PACA-licensed corporations that are
required to adhere to COOL.

AMS Response
         A stratified random sample of smaller branches (i.e., retail or convenience stores) of
PACA-licensed corporations will be assigned to State and Federal officials for retail surveillance
activities in FY 2012.

FINDING 2. AMS needs to strengthen retailer review procedures

   Recommendation 5. Develop and implement a retailer compliance rating system that
      establishes thresholds or levels of materiality regarding non-compliances to identify
      retailers who need additional assistance complying with COOL.

AMS Response
       AMS has amended its compliance and enforcement procedures to include a Retail
Review Compliance Rating Scale for stores subject to COOL surveillance reviews. During a
COOL retail store review, data and evidence is gathered, which is then used to assess the extent
to which a retail store is complying with COOL requirements. The amended procedures were
implemented and used to evaluate the FY 2010 retail reviews for further retailer evaluations and
enforcement actions.

   Recommendation 6. Using the rating system, develop and issue non-compliance letters
      appropriate for the extent of retailer noncompliance and amend the retailer review follow
      up procedures to determine reasons for retailer noncompliance.

AMS Response
        AMS developed and implemented a Retail Review Compliance Rating Scale for COOL
surveillance reviews in FY 10 and identified approximately 1,200 stores that will receive follow
up reviews during FY 11. In addition, AMS developed a Compliance and Enforcement
Requirements document that contains enforcement policies and protocols and defines good faith
effort and willful violations. Using this document, follow up reviews will be analyzed to
determine whether a retailer’s corrective and preventative measures are adequate and the retailer
is acting in good faith or whether it appears that the retailer is willfully violating the statute and
regulation.

   Recommendation 7. Develop and implement procedures to test additional commodities if
      errors are identified during record reviews and evaluate retailers' recordkeeping systems.

AMS Response
        Procedures have been implemented to assess the effectiveness of a retailer’s
recordkeeping system. In the event a retailer meets the criteria for a follow-up review and had a
recordkeeping finding in the initial review, additional records (a total of 8) will be reviewed to
verify the retailer is conveying accurate country of origin information and retaining complete
records for 1 year.

FINDING 3. AMS needs to improve the timeliness of its evaluation of retailer review
documentation

   Recommendation 8. Implement procedures to ensure that AMS' evaluations of retailer
      reviews and distribution of non-compliance letters are completed in a timely manner.

AMS Response
AMS has reduced the processing time (the mean processing time was reduced from 49 days to 34
days) of retail store reviews since implementation of the Final Rule in March 2009. As of June
2011, the COOL Program has hired an additional four full time staff members to assist with
processing retail store reviews in an effort to meet the 30-day target processing time from date of
submission to date of non-compliance letter. In addition, the COOL FACTS database is under
development and scheduled to be implemented in fall 2011, which will also help reduce the
processing time.

FINDING 4. AMS needs to improve enforcement of COOL regulations

   Recommendation 9. Develop and implement written procedures to monitor and provide
      timely follow-up with retailers who may be willfully violating COOL regulations or do
      not make good faith effort to comply with COOL regulations. These procedures should
      include comparing follow-up reviews to prior reviews completed at applicable retailers.

AMS Response
        AMS has implemented Compliance and Enforcement Requirements, which define good
faith effort and willful violations. Any review with 10 or more findings will trigger a follow up
review within 18 months. Federal officials conduct all follow up reviews. The data collected
from these reviews will be analyzed to determine whether adequate corrective measures have
been implemented.

   Recommendation 10. Develop procedures to investigate potentially willful violations and
      issue civil penalties. This should include specific criteria for the types of violations that
       warrant the issuance of civil penalties and the manner in which these determinations may
       be appealed.

AMS Response
        The COOL Compliance and Enforcement Requirements defines good faith effort and
willful violations and also depicts specific criteria for the types of violations warranting civil
penalties. Since the C&E document has been implemented, AMS referred 137 cases of possible
willful violations to the Office of General Counsel for further action, including potential civil
penalties.

FINDING 5. AMS needs to improve its oversight of state agencies

   Recommendation 11. Implement a process to periodically evaluate State performance of
      retailer reviews. For State agencies determined to have deficiencies in evaluating COOL
      compliance, perform follow-up as necessary to improve their ability to conduct retailer
      reviews.

AMS Response
    AMS is improving and expanding training for State and Federal reviewers by providing six
in-depth training sessions in nationwide locations. The expanded training will be provided for
up to five designated reviewers per State. AMS is also strengthening the examination process by
having the AMS officials administer and grade all of the exams and raising the minimum test
score to become a certified COOL retail reviewer. In addition, AMS will evaluate state
performance of retail reviews by comparing reviews by state to determine high non-compliance
states, low non-compliance states to the national average. AMS will identify outlier states and
investigate reasons for outlier status on a quarterly basis through direct observation.
Performance issues will be addressed through additional training and other actions, as deemed
appropriate to address the deficiency. If performance does not improve, AMS will suspend the
reviewer or state COOL participation until performance issues have been effectively addressed.

FINDING 6. AMS needs to improve communication with retailers

   Recommendation 12. Distribute specific guidance regarding labeling requirements,
      abbreviations, and acceptable forms of origin to all retail establishments subject to
      COOL.

AMS Response
        Prior to implementation of the final rule, AMS conducted extensive outreach and
education efforts, which reached most of the regulated community. Nevertheless, in March
2011, AMS distributed a comprehensive package of materials about COOL to the approximately
37,000 retail firms that AMS identified as being covered by COOL. The packet includes
frequently asked questions about COOL regulatory requirements and enforcement activities,
copies of brochures in English and in Spanish for retailers to use with their employees and
customers, and a poster that provides an easy to use summary of covered commodities, quick
labeling tips, helpful hints and acceptable abbreviations. In addition, contact information for the
COOL Branch officials and website address were also provided.
   Recommendation 13. Implement a system to analyze the results of retailer reviews and
      retailer corrective actions and identify noncompliance trends that exist on a nationwide
      basis and, as applicable, corporate-wide basis.

AMS Response
     AMS has designed and developed an automated database management system (called
COOL FACTS) that will identify various trends based on the data in the system. The COOL
FACTS project is expected to be implemented in fall 2011.

   Recommendation 14. Implement a process to develop and disseminate guidance to correct
      the non-compliances identified in the trend analysis.

AMS Response
       AMS will disseminate information on non-compliances identified in the trend analysis
through its education and outreach efforts (e.g., webinars, speaking engagements, etc), future
global mailings to retailers, and in interactions with individual retailers concerning their
corporate performance.
